Office of Audits and Evaluations
Report No. AUD-14-007


The FDIC’s Purchase Card Program




                                   March 2014
                                  Executive Summary

                                  The FDIC’s Purchase Card Program

                                                                                  Report No. AUD-14-007
                                                                                             March 2014

Why We Did The Audit
The Government Charge Card Abuse Prevention Act of 2012, while not applicable to the FDIC, requires
executive agencies that issue and use purchase cards (P-Cards) and convenience checks to establish and
maintain appropriate safeguards and internal controls over those forms of payment. The statute also
requires Inspectors General covered by the Act to conduct periodic risk assessments and audits of agency
P-Card and convenience check programs. Consistent with the spirit of the Act, we conducted an audit of
the FDIC’s P-Card Program.

The objective of this performance audit was to determine the effectiveness of internal controls intended to
minimize improper transactions executed under the P-Card Program. For purposes of the audit, we
considered a transaction to be improper if it did not comply with FDIC policy, procedures, or guidelines.
The FDIC Office of Inspector General engaged the independent firm of Reed & Associates, CPAs, Inc.,
to provide technical assistance during the audit.

Background
The FDIC participates in the government-wide charge card program known as the General Services
Administration (GSA) SmartPay 2 Program. Under the program, GSA manages a set of master contracts
with major U.S. financial institutions through which agencies and organizations may obtain charge card
services to accomplish their mission. In 2008, the FDIC entered into a 10-year contract under the
program with U.S. Bank National Association (U.S. Bank). The contract authorizes U.S. Bank to issue P-
Cards to designated FDIC employees and to bill the FDIC for cardholder purchases. The contract also
provides for the use of convenience checks in order to accommodate purchases from vendors who do not
accept P-Cards.

Within the FDIC, the Division of Administration (DOA) has overall responsibility for administering the
P-Card Program. Key roles in the program include an Agency Program Coordinator who is responsible
for the day-to-day administrative oversight of the P-Card Program, Division/Office Coordinators who
serve as liaisons with DOA and oversee their division’s or office’s compliance with the program, and
Approving Officials who are responsible for monitoring cardholders, reviewing and approving purchases
and charges, and ensuring that charges are adequately supported.

The Office of Management and Budget, the Government Accountability Office, GSA, and other federal
agencies have published requirements and suggested best practices (referred to herein as recognized best
practices) for government charge card programs. Although the FDIC is generally not subject to these
recognized best practices, they do define prudent concepts and business practices that can reduce the risk
of fraud, waste, and error in charge card programs.

Audit Results
The FDIC established a number of internal controls intended to minimize the risk of improper
transactions under the P-Card Program that were generally consistent with recognized best practices.
Such controls include written policies and procedures governing the use of P-Cards and convenience
checks, mandatory training for cardholders and Approving Officials, and various risk management
controls, such as periodic internal reviews and reconciliations of cardholder statements. Further, the
                                                     i
                               To view the full report, go to www.fdicig.gov
  Executive Summary                  The FDIC’s Purchase Card Program

                                                                                     Report No. AUD-14-007
                                                                                                March 2014

FDIC’s card service provider—U.S. Bank—implemented certain controls to prevent and detect improper
transactions. While these controls address many recognized best practices, we found that the FDIC could
improve the effectiveness of its P-Card Program controls by:

    •   making greater use of transaction data to detect patterns, trends, and anomalies that may be
        indicative of potential fraud or misuse;

    •   performing periodic, program-level reviews of cardholder purchase limits to ensure they remain
        appropriate and monitoring convenience check transactions for compliance with established
        purchase limits;

    •   conducting periodic, program-level assessments of the reasonableness of the ratio of Approving
        Officials to cardholders and the volume of transactions that Approving officials are responsible
        for reviewing;

    •   ensuring that cardholder accounts are disabled in a timely manner when cardholders leave the
        FDIC;

    •   prohibiting cardholders from using the P-Card to purchase non-monetary awards on their own
        behalf; and

    •   reviewing and clarifying, as appropriate, the role and responsibilities of the Division/Office
        Coordinator.

We reviewed a non-statistical sample of 150 P-Card transactions processed between April 1, 2011, and
December 31, 2012, to determine whether they complied with FDIC policies, procedures, and guidelines.
Non-statistical samples are judgmental and cannot be projected to the population of transactions. We
found that all of the transactions had been approved by an Approving Official. However, we did note
some form of noncompliance for 26 of the transactions. Most instances of noncompliance involved
cardholders not retaining receipts to support purchases. We referred these 26 transactions to appropriate
FDIC management officials for follow-up action. Our review of P-Card transactions also identified a
wide range of items that were purchased using the Internet as non-monetary awards for employees.
Although such purchases are not prohibited by FDIC policy, using the P-Card to purchase non-monetary
awards that are of a personal nature presents a reputational risk to the FDIC. The FDIC should consider
this risk and clarify its P-Card and non-monetary awards policy, as appropriate.

Recommendations and Corporation Comments
Our report contains eight recommendations addressed to the Director, DOA, that are intended to
strengthen internal controls related to the P-Card Program. The Director, DOA, provided a written
response, dated March 26, 2014, to a draft of this report. In the response, the Director concurred with all
eight of the report’s recommendations and described ongoing and planned actions that address the
recommendations.



                                                     ii
                                To view the full report, go to www.fdicig.gov
                                 Contents

                                                                Page
Background                                                        2

Results of Audit                                                  4

Alignment of P-Card Program Controls to Recognized Best           5
Practices

Review of Selected P-Card Transactions                           11

Corporation Comments and OIG Evaluation                          12

Appendices
   1. Objective, Scope, and Methodology                          13
   2. Glossary of Terms                                          17
   3. Acronyms and Abbreviations                                 18
   4. Corporation Comments                                       19
   5. Summary of the Corporation’s Corrective Actions            26

Tables
    1. Selected P-Card Program Statistics for the Years Ended     3
       2008-2012
    2. Assessment of P-Card Program Controls                      6
Federal Deposit Insurance Corporation                                             Office of Audits and Evaluations
3501 Fairfax Drive, Arlington, Virginia 22226                                          Office of Inspector General

DATE:                                       March 31, 2014

MEMORANDUM TO:                              Arleas Upton Kea, Director
                                            Division of Administration


                                            /Signed/
FROM:                                       Stephen M. Beard
                                            Deputy Inspector General for Audits and Evaluations

SUBJECT:                                    The FDIC’s Purchase Card Program
                                            (Report No. AUD-14-007)


This report presents the results of our audit of the FDIC’s Purchase Card (P-Card)
Program. The Government Charge Card Abuse Prevention Act of 2012, while not
applicable to the FDIC, requires executive agencies that issue and use P-Cards and
convenience checks to establish and maintain appropriate safeguards and internal controls
over those forms of payment. 1 The statute also requires Inspectors General covered by
the Act to conduct periodic risk assessments and audits of agency P-Card and
convenience check programs. Consistent with the spirit of the Act, we conducted an
audit of the FDIC’s P-Card Program. 2

The audit objective was to determine the effectiveness of internal controls intended to
minimize improper transactions executed under the P-Card Program. For purposes of the
audit, we considered a transaction to be improper if it did not comply with FDIC policy,
procedures, or guidelines. To address our objective, we compared the FDIC’s P-Card
Program controls to government-wide requirements and recognized best practices and
reviewed a non-statistical sample of P-Card and convenience check transactions for
compliance with the FDIC policies, procedures, and guidelines. 3 We also spoke with
officials in the Division of Administration (DOA) and other divisions and offices who
had responsibility for administering and implementing the P-Card Program.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Appendix 1 of this report includes additional details about our
objective, scope, and methodology; Appendix 2 contains a glossary of key terms;
Appendix 3 contains a list of acronyms and abbreviations; Appendix 4 contains the
Corporation’s comments on this report; and Appendix 5 contains a summary of the
Corporation’s corrective actions.


1
  Terms that are underlined when first used in this report are defined in Appendix 2, Glossary of Terms.
2
  The FDIC’s P-Card Program includes both P-Cards and convenience checks.
3
  A non-statistical sample is judgmental and cannot be projected to the population. See Appendix 1 for
details regarding our sampling methodology.
Background
The FDIC participates in the government-wide charge card program known as the
General Services Administration (GSA) SmartPay 2 Program. The program provides
agencies and other organizations with a low-cost, efficient vehicle for obtaining goods
and services directly from vendors. Under the SmartPay 2 Program, GSA manages a set
of master contracts with major U.S. financial institutions through which agencies and
organizations may obtain charge card services to accomplish their mission. In 2008, the
FDIC entered into a 10-year contract under the program with U.S. Bank National
Association (U.S. Bank). The contract authorizes U.S. Bank to issue P-Cards to
designated FDIC employees and to bill the FDIC for cardholder purchases. The contract
also provides for the use of convenience checks in order to accommodate purchases from
vendors who do not accept P-Cards. However, the use of convenience checks is
considered to be the least preferred means of paying for goods and services and should
only be used when the P-Card is not accepted.

The FDIC Purchase Card Guide (P-Card Guide) defines the FDIC’s P-Card Program
policies, procedures, processes, and guidelines, as well as the roles and responsibilities of
key program participants. 4 According to the P-Card Guide, DOA’s Acquisition Services
Branch (ASB), Policy and Systems Section, has overall responsibility for administering
the P-Card Program. Other key roles and responsibilities defined in the P-Card Guide,
include, but are not limited to, the following:

    •   Agency Program Coordinator (APC). An ASB official with day-to-day
        administrative responsibility for operating the P-Card Program, providing
        guidance to program participants, and serving as the FDIC’s primary liaison with
        U.S. Bank and GSA.

    •   Division/Office Coordinators (D/OC). Officials appointed by each participating
        division or office to serve as a liaison with ASB. Among other things, D/OCs are
        responsible for ensuring that ASB has a current list of cardholders and Approving
        Officials (AO) and that cardholders and AOs verify and approve transactions each
        month and receive appropriate training. D/OCs are also responsible for
        requesting the establishment and cancellation of cardholder accounts and
        requesting revised purchase limits, as appropriate.

    •   Approving Officials. Division or office officials responsible for monitoring
        cardholder compliance with regulations and procedures. Among other things,
        AOs are responsible for reviewing and approving purchases and charges and
        ensuring that charges are supported with vendor receipts or other evidence of the
        receipt of goods or services (collectively referred to herein as transaction
        documentation).

4
  The P-Card Guide, dated August 2008, is an appendix to the Procedures, Guidance, and Information
(PGI) document, which accompanies the FDIC Acquisition Policy Manual (APM). The APM establishes
the FDIC’s policy for procuring goods and services from the private sector. The PGI document contains
procedures for implementing the APM.

                                                   2
      •   Cardholders. FDIC employees designated by an AO or D/OC and appointed by
          the DOA Assistant Director, Policy and Systems Section, or the APC.
          Cardholders are responsible for using the P-Card (and convenience checks if they
          have been delegated authority to use that form of payment) to purchase goods and
          services for official use only and for complying with the P-Card Guide and any
          restrictions in their Cardholder Appointment Memorandum.

DOA’s homepage on the FDIC’s internal network also contains information about the
P-Card Program, such as procedures for obtaining P-Card accounts, reconciling
cardholder statements with the FDIC’s accounting system known as the New Financial
Environment (NFE), approving cardholder purchases, and obtaining training.

P-Card Usage at the FDIC

P-Cards are the FDIC’s preferred method for purchasing and paying for goods and
services valued at $5,000 or less. P-Cards may also be used to acquire commercially
available goods and services valued above $5,000, provided that the cardholder complies
with the P-Card Guide and appropriate sections of the APM and PGI document. 5 In
addition, P-Cards may be used for recurring purchases provided that the cumulative total
of any recurring requirement does not exceed $100,000 in a 12-month period.

Table 1 contains selected statistics pertaining to the FDIC’s P-Card Program for the
calendar years ended December 31, 2008 through 2012. As shown in the table, the
number of cardholder accounts and P-Card transactions peaked in 2010 during the
financial crisis and has declined gradually since that time.

Table 1: Selected P-Card Program Statistics for the Years Ended 2008-2012
    Program Statistic          2012             2011            2010             2009            2008
    Number of                   571              648             742              617             492
    Cardholder Accounts
    Number of P-Card          21,138           26,836          27,865           25,715          18,964
    Transactions
    Number of                  1,317           1,705            1,940           2,112            1,354
    Convenience Check
    Transactions
    Total Purchase         $23,332,018      $30,226,751     $33,303,154      $30,097,438     $21,775,183
    Amounts
Source: Office of Inspector General (OIG) analysis of data provided by DOA for 2008 and U.S. Bank for
2009-2012.

Government-wide Requirements and Best Practices

The Office of Management and Budget’s (OMB) Circular No. A-123, Management’s
Responsibility for Internal Control, Appendix B Revised, Improving the Management of
Government Charge Card Programs, (OMB A-123, Appendix B) dated January 15,
2009, defines minimum requirements and suggested best practices for government charge

5
  The FDIC has independent procurement authority under the Federal Deposit Insurance Act and, therefore,
is not required to follow the Federal Acquisition Regulation.

                                                    3
card programs. Although the FDIC is not subject to OMB A-123, Appendix B, it defines
prudent concepts and business practices that can reduce the risk of fraud and misuse in
charge card programs. Among other things, the appendix states that charge card
programs should include:

   •   written policies and procedures for the appropriate use of charge cards;

   •   mandatory training for cardholders and other program participants;

   •   risk management controls, such as reviews of cardholder statements and
       transaction documentation, separation of duties for key functions, and reviews of
       available data (including the use of data mining, if available) to detect instances of
       fraud and misuse;

   •   periodic reviews of controls to evaluate their effectiveness; and

   •   controls to mitigate the use of convenience checks.

GSA, the Government Accountability Office (GAO), and other federal agencies have
also published best practices related to government charge card programs. For purposes
of this report, we refer to these best practices and OMB A-123, Appendix B, as
recognized best practices.


Results of Audit
The FDIC established a number of internal controls intended to minimize the risk of
improper transactions under the P-Card Program that were generally consistent with
recognized best practices. Such controls include written policies and procedures
governing the use of P-Cards and convenience checks, mandatory training for
cardholders and AOs, and various risk management controls, such as periodic internal
reviews and reconciliations of cardholder statements. Further, the FDIC’s card service
provider—U.S. Bank—implemented certain controls to prevent and detect improper
transactions. While these controls address many recognized best practices, we found that
the FDIC could improve the effectiveness of its P-Card Program controls by:

   •   making greater use of transaction data to detect patterns, trends, and anomalies
       that may be indicative of potential fraud or misuse;

   •   performing periodic, program-level reviews of cardholder purchase limits to
       ensure they remain appropriate and monitoring convenience check transactions
       for compliance with established purchase limits;




                                             4
       •   conducting periodic, program-level assessments of the reasonableness of the ratio
           of AOs to cardholders and the volume of transactions that AOs are responsible for
           reviewing;

       •   ensuring that cardholder accounts are disabled in a timely manner when
           cardholders leave the FDIC;

       •   prohibiting cardholders from using the P-Card to purchase non-monetary awards
           on their own behalf; and

       •   reviewing and clarifying, as appropriate, the role and responsibilities of the D/OC.

We reviewed a non-statistical sample of 150 P-Card transactions processed between
April 1, 2011, and December 31, 2012, to determine whether they complied with FDIC
policies, procedures, and guidelines. We found that all of the transactions had been
approved by an AO. However, we did note some form of noncompliance for 26 of the
transactions. Most instances of noncompliance involved cardholders not retaining
receipts to support purchases. We referred these 26 transactions to appropriate FDIC
management officials for follow-up action. Our review of P-Card transactions also
identified a wide range of items that were purchased using the Internet as non-monetary
awards for employees. Although such purchases are not prohibited by FDIC policy,
using the P-Card to purchase non-monetary awards that are of a personal nature presents
a reputational risk to the FDIC. The FDIC should consider this risk and clarify its P-Card
and non-monetary awards policy, as appropriate.

Alignment of P-Card Program Controls to Recognized Best Practices

We reviewed the FDIC’s P-Card Program controls to assess the extent to which they
aligned with 11 recognized best practices for mitigating the risk of fraud and misuse. We
identified the 11 best practices based on our review of relevant P-Card-related statutes,
policies, procedures, guidance, and reports. 6 Overall, we determined that the
establishment and implementation of the FDIC’s P-Card Program controls generally
aligned with the best practices that we selected for review. However, we did note
exceptions. Table 2 on the following page summarizes the results of our assessment. A
detailed description of each exception that we noted follows the table.




6
    See Appendix I for the statutes, policies, procedures, guidance, and reports that we reviewed.

                                                        5
Table 2: Assessment of P-Card Program Controls
           Controls Intended to Mitigate the Risk of                      Addressed in        Implemented?
                      Fraud and Misuse                                      Policies,
                                                                         Procedures, or
                                                                          Guidelines?
 Reviews available transaction data (using automated                             N                   P
 techniques, such as data mining) to detect fraud and misuse
 Sets reasonable cardholder purchase limits                                      √                   P

 Reviews cardholder purchases                                                    √                    √

 Blocks merchant category codes                                                  √                    √

 Conducts annual reviews of the number of AOs to                                 N                   P
 cardholders, cardholder limits, and transactions

 Reconciles accounts and certification of services                               √                    √

 Defines criteria for deactivating/cancelling cardholder                         √                   P
 accounts
 Takes disciplinary action against individuals who abuse their                   √                    √
 accounts or otherwise engage in potentially fraudulent
 activity
 Ensures appropriate separation of duties for key functions                      √                   P

 Identifies key program officials and their responsibilities                     √                   P


 Defines and requires training for program participants                          √                    √

Source: OIG analysis of 11 recognized best practices, the FDIC’s P-Card Program policies, procedures,
and guidelines, and the results of selected control assessments.
√ - Indicates that the control was addressed in policies, procedures, or guidelines and/or was implemented.
P- Indicates that the control was partially addressed in policies, procedures, or guidelines and/or was
partially implemented.
N – Indicates that the control was not addressed in policies, procedures, or guidance and/or was not
implemented.

Review of Available Data to Detect Fraud and Misuse. Each month, U.S. Bank
provides the FDIC with a file containing basic P-Card and convenience check transaction
data, such as merchant names and locations, transaction amounts, and transaction dates.
The file is uploaded to NFE, and cardholders and AOs log into NFE to review and
approve their transactions. U.S. Bank also maintains, but does not routinely provide,
more detailed data for some of the FDIC’s P-Card transactions. This more detailed
data—commonly referred to as Level III line item detail—includes item descriptions and
quantities. In addition, U.S. Bank offers its customers a payment analytics tool that can
analyze transaction data and generate a wide variety of standard and custom reports. The
tool uses defined parameters to flag suspicious transactions and violations and can
correlate seemingly unrelated events that may represent a risk. The use of automated

                                                     6
techniques, such as the payment analytics tool, to analyze detailed transaction data for
patterns, trends, and anomalies that may be indicative of fraud or misuse is a recognized
best practice.

We found that the APC and one other DOA employee reviewed 4 of 25 standard payment
analytics reports offered by U.S. Bank. 7 In addition, DOA and several other divisions
have performed various internal reviews of their P-Card and convenience check usage in
recent years and reported the results to their division’s management. However, the
FDIC’s P-Card policies, procedures, and guidelines do not provide for an ongoing
program-level review of detailed transaction data maintained by U.S. Bank for patterns,
trends, or anomalies that may indicate potential fraud or misuse. Our review of U.S.
Bank’s payment analytics tool and related reports found that they could be better
leveraged by DOA in its efforts to identify potential fraud, misuse, or noncompliance
with FDIC policies, procedures, or guidelines. Doing so would help mitigate risk in the
P-Card Program.

Cardholder Purchase Limits. GSA’s publication, entitled Managing GSA SmartPay
Purchase Card Use, a Plan for Success, states that organizations should set realistic, but
not excessive, purchase limits as a means of deterring cardholder misuse. In addition,
GAO’s November 2003 audit guide, entitled Auditing and Investigating the Internal
Control of Government Purchase Card Programs, states that purchase limits directly
affect the extent of potential loss to an organization from fraudulent, improper, and
abusive purchases. Further, periodic reviews of cardholder limits are an important
control for ensuring that limits remain at appropriate levels to meet operational
requirements and allow organizations to better manage and control their P-Card risks.

Cardholders in the P-Card Program receive a Cardholder Appointment Memorandum
that, among other things, establishes the following three types of purchase limits:

    •   Single Purchase Limit. The maximum amount a cardholder may charge for any
        single purchase using the P-Card.

    •   Convenience Check Limit. The maximum amount a cardholder may pay when
        using a convenience check. A cardholder’s convenience check limit may be less
        than his or her single purchase limit. Convenience checks are issued to some, but
        not all, cardholders.

    •   Monthly Purchase Limit. The maximum cumulative amount a cardholder may
        charge during any monthly billing cycle. The monthly purchase limit includes
        purchases made with both the P-Card and convenience checks.



7
 The four reports were Possible Split Purchases, Possible Split Transactions in a Single Day, Weekend or
Holiday Transactions, and Monitor Possible Conference Transactions.

                                                    7
We compared 44,404 P-Card and convenience check transactions processed between
April 1, 2011, and December 31, 2012, against established single and monthly purchase
limits and found no exceptions. However, we did note that 234 of the 571 P-Card
accounts (or 41 percent) that were active as of December 31, 2012, had single purchase
limits that were more than 5 times the cardholders’ maximum transaction amount during
the 21-month period that we reviewed. In addition, 491 of the 571 P-Card accounts (or
86 percent) had monthly purchase limits that were more than 5 times the cardholders’
maximum monthly purchase amount during the same period. This disparity can be
attributed, in part, to elevated limits that were established during the recent financial
crisis. Internal reviews of P-Card usage for selected FDIC divisions have also identified
cardholder limits that needed to be reduced. Further, the APC has taken some steps to
reduce cardholder limits. The results of our analysis indicate that further review and
action to adjust cardholder purchase limits is warranted.

We also compared all 2,616 convenience check transactions processed during the time
period referenced above against established convenience check limits and found that 32
(or about 1 percent) exceeded those limits. These 32 convenience checks were written by
15 of the 192 cardholders (or about 8 percent) who were authorized to write convenience
checks during the same period. We spoke with 12 of the 15 cardholders regarding the
exceptions we identified and determined that none were aware that they had exceeded
their convenience check limit.8 Eight of the twelve cardholders mistakenly thought that
their convenience check limit was the same as their single purchase limit for the P-Card.
The remaining four cardholders appropriately requested that the APC increase their limits
before they wrote the checks, but for various reasons, the increases were not processed by
the APC. The APC was also unaware of the 32 limit exceptions that we identified
because a mechanism to effectively monitor convenience checks for limit exceptions had
not been established. Absent monitoring and appropriate follow-up action with
cardholders to address exceptions, there is an increased risk of fraud, misuse, and non-
compliance with FDIC policies, procedures, or guidelines.

Ratio of Approving Officials to Cardholders. The P-Card Guide states that AOs are
responsible for assuring that all cardholder statement charges are supported by a vendor
receipt or other evidence of FDIC receipt of goods or services and for verifying
cardholder documentation to ensure purchases are justified. GSA’s Blueprint for
Success: A Guide for Purchase Card Oversight, states that the number of cardholders and
the volume of transactions for which an AO is responsible needs to be reasonable in order
to allow AOs ample time to review transactions. Timely reviews of transactions are
necessary to ensure the detection of card misuse and fraud. Although there is no
definitive AO to cardholder ratio, the GSA guide states that the most common ratios
range between 1:4 and 1:10.

We reviewed the span of control for 135 AOs and that found 13 (or 10 percent) had AO
to cardholder ratios greater than 1:10. The ratios for these 13 officials ranged from 1:11
to 1:52. We also interviewed a non-statistical sample of 9 AOs who had responsibility

8
  We were unable to speak with the remaining three cardholders because they were no longer employed by
the FDIC.

                                                  8
for more than 10 cardholders and/or who had a high amount of transactions based on
transaction dollars and volume. Six of the 9 AOs that we spoke with stated that they did
not have time to look at the documentation underlying every transaction. In many cases,
the AOs either spot checked transaction documentation or relied on other staff to review
and verify the documentation.

AOs are responsible for ensuring that all purchases made by their cognizant cardholders
are appropriate and that charges are accurate and supported. As such, AOs are the first
line of defense against potential fraud and misuse and must have the requisite time to
review transaction details to ensure that purchases comply with FDIC policies,
procedures, and guidelines. The FDIC can achieve greater assurance that AOs have
ample time to effectively review transactions by establishing a policy or procedure for
conducting periodic, program-level reviews of the ratios of AOs to cardholders and the
volume of transactions AOs are responsible for reviewing. The FDIC should also
determine whether it is appropriate for AOs to delegate their responsibility to review and
verify transaction documentation to other employees and/or to spot check documentation
based on some form of risk analysis. To the extent that such practices are determined to
be appropriate, the FDIC should clarify AO responsibilities and expectations.

Cancelling Cardholder Accounts for Separating Employees. The P-Card Guide
states that cardholders must notify their AO if they plan to leave the FDIC and that the
AO must in turn notify the APC in writing of the cardholder’s effective separation date
prior to the departure. The APC must then cancel the cardholder’s account and submit a
written confirmation of the cancellation to the AO.

We reviewed the accounts of all cardholders who separated from the FDIC between
May 1, 2011, and December 31, 2012, to determine whether the accounts had been
cancelled prior to the cardholder’s departure. Of the 98 accounts that we reviewed, 22
had not been cancelled prior to the cardholder’s separation from the FDIC. Thirteen of
the 22 accounts were cancelled more than 7 days after the employee’s departure. In most
instances, the accounts were not cancelled prior to the cardholders’ separation because
the AOs did not provide timely notification of the separations to the APC.

Importantly, no new purchases were made under the 22 accounts following the
cardholders’ separations. Nevertheless, untimely cancellation of cardholder accounts for
separating employees presents an increased risk of unauthorized use of the accounts.

Separation of Duties. GSA’s Blueprint for Success: A Guide for Purchase Card
Oversight, states that agency P-Card policies should address separation of duties to
minimize the risk of fraud and/or loss of property. In particular, the responsibilities of
cardholders, AOs, and APCs should not overlap to ensure that management controls are
not circumvented. The P-Card Guide defines separation of duties for key program
participants. Among other things, the guide states that AOs must not be subordinate to
any cardholder within their approval hierarchy.
We reviewed a non-statistical sample of 150 of the 44,404 P-Card transactions that were
processed between April 1, 2011, and December 31, 2012, and found that eight involved

                                             9
a cardholder purchasing a non-monetary award on their own behalf. In each instance, an
AO approved the transaction. However, for 7 of the 8 transactions, the description of the
transaction in NFE merely stated “non-monetary award” without any indication of who
actually received the award. Such a practice presents a risk that a cardholder could
deliberately enter generic non-monetary award descriptions in NFE for purchases they
make on their own behalf. The risk is further elevated by the fact that some AOs do not
have ample time to review underlying transaction documentation as described earlier.
We also found that one of the nine AOs that we interviewed was a subordinate to a
cardholder. The P-Card Guide prohibits employees from serving as AOs when they are a
subordinate to a cardholder. We notified DOA of this situation and corrective action was
taken prior to the close of the audit.

Role of the Division/Office Coordinator. The P-Card Guide identifies the D/OC as one
of four roles associated with the success of the P-Card Program. According to the guide,
a D/OC must be appointed by each participating division or office to serve as a liaison
with ASB and to function at an organizational level for purposes of coordinating
APC requests to the division or office, and for internal control purposes. The
responsibilities of D/OCs include:

   •   ensuring that ASB has a current list of cardholders and AOs and that the hierarchy
       structure of the program is correct (e.g., that cardholders are subject to approval
       by the correct AOs);

   •   acting as the primary point of contact with ASB for disseminating information
       about the program;

   •   ensuring cardholders and AOs have verified and approved all transactions on a
       monthly basis;

   •   ensuring that cardholders and AOs have received appropriate training;

   •   ensuring that all convenience check data is submitted monthly to the APC;

   •   requesting the establishment and cancellation of cardholder accounts and revised
       purchase limits, as appropriate; and

   •   reporting suspected P-Card misuse to the APC immediately upon becoming aware
       of possible misuse.

The APC informed us that, in practice, the involvement of the D/OCs in the P-Card
Program is informal and that D/OCs are generally only consulted on an as needed basis
when DOA requires their assistance. In addition, the APC was not maintaining a current
listing of individuals serving as D/OCs and two offices—the Office of Minority and

                                           10
Women Inclusion and the Office of International Affairs—did not have a designated
D/OC. DOA should review the role of the D/OC in the P-Card Program to determine
whether it is functioning as intended and clarify the D/OC’s responsibilities, if warranted.

Recommendations

We recommend that the Director, DOA:

   1. Make greater use of P-Card transaction data and reports to detect patterns, trends,
      and anomalies that may be indicative of potential fraud or misuse.

   2. Strengthen oversight of purchase limits by (a) performing periodic, program-level
      reviews of cardholder purchase limits to ensure they remain appropriate,
      (b) establishing processes to monitor convenience checks for potential limit
      exceptions, and (c) reiterating to cardholders the difference between single
      purchase limits for P-Cards and convenience checks.

   3. Establish a policy or procedure for conducting periodic, program-level reviews of
      the ratios of AOs to cardholders and the volume of transactions AOs are
      responsible for reviewing to ensure they remain appropriate.

   4. Review and clarify, as appropriate, AO responsibilities and expectations for
      reviewing and verifying documentation supporting P-Card transactions.

   5. Reinforce to cardholders and AOs their responsibility to provide timely
      notification to the APC of pending cardholder separations.

   6. Update P-Card policies and procedures to prohibit cardholders from using the
      P-Card to purchase non-monetary awards on their own behalf.

   7. Review and clarify, as appropriate, the role and responsibilities of the
      Division/Office Coordinator.



Review of Selected P-Card Transactions

We reviewed a non-statistical sample of 150 of the 44,404 P-Card transactions that were
processed between April 1, 2011, and December 31, 2012, to determine whether they
complied with FDIC policies, procedures, and guidelines. We found that all 150 of the
transactions had been approved by an AO. However, we did note some form of non-
compliance for 26 of the transactions. Most instances of noncompliance involved
cardholders not retaining receipts to support purchases. The remaining instances
involved the purchase of prohibited items, the payment of sales taxes, transaction
splitting to circumvent a purchase limit, and not coordinating with another division or

                                            11
office before purchasing a good or service that required such coordination. These policy
exceptions appear to have been caused by oversights or a lack of awareness of policy
requirements on the part of cardholders. We referred all 26 instances of noncompliance
to the DOA Assistant Director, Policy and Systems Section, for appropriate action.

Non-monetary Awards. Circular 2420.1, FDIC Rewards and Recognition Program,
allows divisions and offices to use the P-Card to purchase non-monetary awards for
employees. The circular states that the type of items that may be awarded is left to the
discretion and creativity of the individual approving the award. Our review of the 150
P-Card transactions identified a wide range of items that were purchased as non-monetary
awards using the Internet. These items were generally valued at $25 or less. Although
the non-monetary award items that we reviewed were permissible under FDIC policy,
using the P-Card to purchase awards that are of a personal nature presents a reputational
risk to the FDIC. We spoke with DOA management officials about this risk and were
informed that consideration is being given to modifying Circular 2420.1 to limit the types
of items that would qualify as non-monetary awards. The FDIC should consider the risk
associated with using the P-Card to purchase non-monetary awards and clarify the
Corporation’s P-Card and non-monetary awards policies and guidance, as appropriate.

Recommendation

We recommend that the Director, DOA:

   8. Review and clarify, as appropriate, corporate policy and guidance related to the
      types of items that may be purchased as non-monetary awards using the P-Card.


Corporation Comments and OIG Evaluation
The Director, DOA, provided a written response, dated March 26, 2014, to a draft of this
report. The response is presented in its entirety in Appendix 4. In the response, the
Director concurred with all eight of the report’s recommendations and described ongoing
and planned corrective actions that address the recommendations. A summary of the
Corporation’s corrective actions is presented in Appendix 5. The planned corrective
actions are responsive to the recommendations and the recommendations are resolved.




                                           12
                                                                             Appendix 1


               Objective, Scope, and Methodology
Objective

The audit objective was to determine the effectiveness of internal controls intended to
minimize improper transactions executed under the P-Card program.

We conducted this performance audit from April 2013 through February 2014 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objective.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objective. The conclusions and findings in this report are
based on information provided by the FDIC and certain analyses that we performed
through February 2014. We caution that projecting the results of our audit to future
periods is subject to the risk that controls may become inadequate because of changes in
conditions or because compliance with controls may deteriorate.

Scope and Methodology

To obtain a proper understanding of relevant government-wide requirements and best
practices related to P-Card usage, we:

   •   Reviewed and analyzed government-wide statutes, policies, procedures, guidance,
       and reports including, but not limited to:

            o The Government Charge Card Abuse Prevention Act of 2012
            o OMB A-123, Appendix B
            o The Council of the Inspectors General on Integrity and Efficiency’s
              Government Purchase Card Audit Framework, dated January 2012
            o GAO’s audit guide, entitled Auditing and Investigating the Internal
              Control of Government Purchase Card Programs, dated November 2003
            o GAO’s report, entitled Governmentwide Purchase Cards: Actions Needed
              to Strengthen Internal Controls to Reduce Fraudulent, Improper, and
              Abusive Purchases, dated March 2008
            o GSA’s Blueprint for Success: A Guide for Purchase Card Oversight
            o GSA’s Managing GSA SmartPay Purchase Card Use: A Plan for Success

   •   Contacted officials in GSA’s SmartPay Program to obtain their perspectives on
       P-Card program controls.

   •   Interviewed selected OIG officials at other federal agencies to discuss their
       approach for conducting P-Card audits.



                                            13
                                                                             Appendix 1


               Objective, Scope, and Methodology
To obtain an understanding of the FDIC’s internal controls intended to minimize
improper P-Card transactions, we:

   •   Reviewed and analyzed P-Card Program policies, procedures, guidelines, and
       reports, including:
          o The P-Card Guide
          o Procedures and guidance on DOA’s internal Web site pertaining to such
               things as NFE reconciliations and approvals, training, communications on
               temporary limit increases and convenience check usage, and frequently
               asked questions
          o DRR Circular 3700, FDIC Purchase Card Program, dated June 20, 2008.
          o DOA’s report, entitled Overview of the FDIC Purchase Card Program
               and Business Processes, dated February 2011
          o Internal review reports issued by DOA and other divisions

   •   Interviewed officials in DOA, including the APC, and other divisions and offices,
       such as AOs and cardholders, who had responsibility for administering and
       implementing the P-Card Program.

   •   Interviewed the U.S. Bank representative to the FDIC to determine the types of
       internal controls that U.S. Bank employs.

To determine the effectiveness of internal controls intended to minimize improper
transactions, we compared the FDIC’s P-Card Program controls to 11 recognized best
practices that we determined to be key in mitigating the risk of fraud and misuse in
government charge card programs. We also performed various analyses of program
controls, such as computing the ratio of AOs to cardholders and the total transaction
volume that AOs are responsible for and compared that information to best practices;
comparing cardholder credit limits to cardholder transactions to determine cardholder
utilization of available credit; comparing all convenience check transactions against
cardholder convenience check limits for the population of transactions; and determining
the timeliness of account cancellations for cardholders who separated from the FDIC
from May 1, 2011, through December 31, 2012.

In addition to program controls, we reviewed a non-statistical sample of transactions for
compliance with FDIC policies, procedures, and guidelines. Non-statistical samples are
judgmental and cannot be projected to the population of transactions. A description of
our sampling methodology follows.

We obtained a dataset of all P-Card and convenience check transactions from U.S. Bank
for the period April 1, 2011, through December 31, 2012. The dataset contained a total
of 44,404 transactions, consisting of 41,788 P-Card transactions totaling $40.7 million
and 2,616 convenience check transactions totaling $5.2 million. We selected 150

                                            14
                                                                             Appendix 1


               Objective, Scope, and Methodology
transactions totaling $962,478 from the population by using 13 filters (or business rules)
that we developed based on our review of government-wide requirements, best practices,
and reports. These business rules were designed to identify “at risk” transactions that had
an elevated potential for non-compliance with FDIC policies, procedures, or guidelines.
We engaged the independent firm of Reed & Associates, CPAs, Inc., to assist us in
developing automated queries to filter the dataset using the 13 business rules to develop
our sample of 150 transactions. For each transaction that we selected, we performed the
following steps:

   •   Requested that the cognizant cardholder provide us with documentation
       supporting the transaction and the rationale for procuring the goods or services.

   •   Verified whether each transaction had been approved by an AO in NFE.

   •   Determined whether the business reason provided for the transaction was
       consistent with information contained in NFE.

We performed our work at the FDIC’s Virginia Square Offices in Arlington, Virginia.

Internal Control, Reliance on Computer-processed Information,
Performance Measurement, and Compliance with Laws and Regulations

As described in the Scope and Methodology section of this Appendix, we performed
audit procedures to identify and obtain an understanding of the FDIC’s internal controls
for minimizing improper transactions executed under the P-Card program. We also
compared the FDIC’s P-Card Program controls to recognized best practices and reviewed
selected transactions for compliance with the FDIC’s P-Card policies, procedures, and
guidelines. Consistent with our audit objective, we did not assess the adequacy of the
FDIC’s overall internal control or management control environment. Our report
identifies certain internal control weaknesses warranting management’s attention.

We relied on data provided by U.S. Bank to select a sample of transactions for detailed
analysis. We determined that the data provided was sufficiently reliable for purposes of
selecting a sample by performing various procedures, such as reconciling P-Card
transaction data from U.S. Bank to NFE; discussing the data with a U.S. Bank
representative and DOA officials; and comparing the data to figures in published reports,
such as Annual Review Reports issued by U.S. Bank and an internal FDIC report on
P-Cards, and information generated by NFE. We did not perform an assessment of data
reliability controls in U.S. Bank’s systems or NFE. However, we did review the accuracy
and completeness of selected data in U.S. Bank’s system and NFE for the 150
transactions we selected by comparing information in the systems to supporting
documentation (when it was available).


                                            15
                                                                               Appendix 1


               Objective, Scope, and Methodology
The Government Performance and Results Act of 1993 (the Results Act), as amended,
directs executive branch agencies to develop a customer-focused strategic plan, align
agency programs and activities with concrete missions and goals, and prepare and report
on annual performance plans. For this audit, we did not assess the strengths and
weaknesses of FDIC’s annual performance plan in meeting the requirements of the
Results Act because such an assessment was not part of the audit objective.

We did not perform tests of compliance with the Government Charge Card Abuse
Prevention Act of 2012 because the FDIC is not subject to the statute. However, we did
consider the provisions of the statute in selecting the 11 recognized best practices that
were used as the principal criteria for our assessment of P-Card program controls. We
assessed the risk of fraud and abuse related to our objective when selecting audit criteria,
designing audit procedures, and evaluating audit evidence.




                                             16
                                                                               Appendix 2


                          Glossary of Terms
     Term                                         Definition
Cardholder       A memorandum issued by the DOA Assistant Director, Policy and
Appointment      Systems Section, or the APC that delegates to the cardholder the authority
Memorandum       to make authorized purchases for the FDIC using the P-Card (and in some
                 cases, convenience checks). The memorandum specifies purchase limits
                 and any restrictions on the use of the P-Card or convenience checks.
Convenience      A paper check associated with a cardholder account.
Check
Data Mining      An automated process used to analyze data to detect patterns, trends,
                 and/or anomalies for use in risk management and other areas of analysis.
Fraud            Any act of corruption or attempt to cheat the government or corrupt the
                 government’s agents, including but not limited to, the use of government
                 charge cards to transact business that is not sanctioned, not authorized, not
                 in one’s official government capacity, not for the purpose for which the
                 card was issued, or not as part of official government business.
Merchant         A four-digit code used to identify the type of business a merchant conducts
Category Code    (e.g., gas stations, restaurants, airlines). Merchants select a code based on
(MCC)            their primary business. Organizations may prohibit purchases from
                 merchants with certain Merchant Category Codes as a means of reducing
                 the risk of improper transactions.
Misuse           In the case of government P-Cards, intentional use of a P-Card for other
                 than official government transactions. Depending on the circumstances,
                 misuse may involve fraud.
P-Card           An account established by a commercial financial institution on behalf of
                 agencies or individual agency employees to which the cost of purchasing
                 goods and services may be charged.
Purchase Limit   The maximum amount that a cardholder may charge to a P-Card account in
                 a single purchase (i.e., transaction) or in a single monthly billing cycle.
                 The term also refers to the maximum amount a cardholder may pay when
                 using a convenience check. The FDIC’s purchase limits are defined in
                 Cardholder Appointment Memoranda.
SmartPay 2       A government-wide purchase card program administered by GSA. Under
                 the program, agencies and organizations issue task orders against master
                 contracts that GSA has with Citibank, JPMorgan Chase, and U.S.
                 Bank. These banks provide charge cards to the agency or organization
                 employees to make purchases on behalf of the agency or organization.
                 Agencies can obtain different types of charge card products and services
                 under the SmartPay 2 Program, including purchase, travel, fleet, and
                 integrated cards.
Transaction      The swipe of a credit card through a point of sale terminal, completion of
                 an online transaction, or use of a convenience check. A transaction may
                 involve the purchase of one or more items.




                                          17
                                                              Appendix 3


                Acronyms and Abbreviations

Acronym/Abbreviation   Explanation
AO                     Approving Official
APC                    Agency Program Coordinator
APM                    Acquisition Policy Manual
ASB                    Acquisition Services Branch
DOA                    Division of Administration
D/OC                   Division/Office Coordinator
DRR                    Division of Resolutions and Receiverships
FDIC                   Federal Deposit Insurance Corporation
GAO                    Government Accountability Office
GSA                    General Services Administration
NFE                    New Financial Environment
OIG                    Office of Inspector General
OMB                    Office of Management and Budget
PAB                    Procurement Administrative Bulletin
P-Card                 Purchase Card
PGI                    Procedures, Guidance, and Information Document
U.S. Bank              U.S. Bank National Association




                                18
                                                                                                 Appendix 4

                           Corporation Comments


Federal Deposit Insurance Corporation
3501 Fairfax Drive, Arlington, VA 22226                                                    Division of Administration

 DATE:                            March 26, 2014

 MEMRANDUM TO:                    Stephen M. Beard
                                  Deputy Inspector General for Audits and Evaluations

FROM:                             Arleas Upton Kea, Director /Signed/
                                  Division of Administration

 SUBJECT:                         Management Response to the Office of the Inspector General Draft
                                  Audit Report Entitled, The FDIC’s Purchase Card Program
                                  (Assignment No. 2013-020)

 The Division of Administration (DOA) has completed its review of the subject Office of
 Inspector General (OIG) Draft Audit Report dated February 26, 2014. We appreciate the review
 performed by the OIG and are pleased to see that the DOA has established a number of internal
 controls to minimize the risk of improper transactions and that these controls were generally
 consistent with recognized best practices.

 Although the OIG found that the FDIC purchase card (P-Card) program was consistent with
 recognized best practices, the OIG did identify opportunities for FDIC to improve the P-Card
 program controls; and made eight recommendations to the DOA. We have reviewed each
 recommendation and have provided our management response along with the planned corrective
 actions that DOA will take for each recommendation.

 MANAGEMENT DECISION

 Recommendation 1: Make greater use of P-Card transaction data and reports to detect
 patterns, trends and anomalies that may be indicative of potential fraud or misuse.

 DOA Management Response: DOA concurs with this recommendation.

 In 2012, U.S. Bank created a “Payment Analytics” reporting tool that consisted of various types
 of payment alerts that could be made available to the FDIC in its management of the P-card
 program. The Agency Program Coordinator (APC), located in the DOA Acquisition Services
 Branch (ASB), who provides the day-to-day administrative oversight of the program, did
 evaluate the payment analytics reports offered by U.S. Bank. As a result, the APC selected four
 reports from the payment analytics tool that would be helpful in managing the P-Card program.
 The four reports include: Possible Split Purchase; Possible Split Transactions in a Single Day;
 Weekend or Holiday Transactions; and Possible Conferences Transactions. The APC believed
  the selection of the four payment analytics reports combined with the other U.S. Bank online
 reports - program management, financial management, supplier management and administration
 reports - provided the necessary control activities to administer the program effectively.




                                                       19
                       Appendix 4


Corporation Comments




         20
                       Appendix 4


Corporation Comments




         21
                       Appendix 4


Corporation Comments




         22
                       Appendix 4


Corporation Comments




         23
                       Appendix 4


Corporation Comments




         24
                       Appendix 4


Corporation Comments




         25
                                                                              Appendix 5


     Summary of the Corporation’s Corrective Actions
This table presents corrective actions taken or planned by the Corporation in response to
the recommendations in the report and the status of the recommendations as of the date of
report issuance.

                                                                              a
Rec.                                           Expected    Monetary   Resolved:   Open or
                                                                                        b
No.      Corrective Action: Taken or          Completion   Benefits   Yes or No   Closed
                   Planned                       Date
 1     DOA will re-evaluate payment            5/31/14       N/A        Yes        Open
       analytics reports offered by U.S.
       Bank to determine how this
       information and other reporting
       alerts can be leveraged to enhance
       the overall management and
       oversight of the P-Card Program.
       As part of this effort, DOA will
       consider the use of payment
       analytics information in identifying
       patterns, trends, and anomalies that
       may be indicative of potential
       fraud or misuse.

       In addition, DOA’s Internal
       Review Section will incorporate
       periodic program-level reviews
       that utilize Level III transaction
       data in P-Card Program testing.
 2     With respect to cardholder              6/30/14       N/A        Yes        Open
       purchase limits, DOA’s Internal
       Review Section will incorporate
       periodic reviews of all authorized
       P-Cardholders into its annual
       review plan. These reviews, the
       first of which will be completed by
       June 30, 2014, will evaluate
       cardholder purchase limits based
       on usage and recommend
       cancellation of unused P-Cards and
       limit adjustments, as appropriate.

       With respect to the monitoring of
       convenience checks, DOA will
       develop a monthly email
       notification process to address
       cardholders (and their requisite
       AOs) who exceed their authorized
       check limits. In addition, DOA
       will work with U.S. Bank to

                                                26
                                                                    Appendix 5


    Summary of the Corporation’s Corrective Actions
     determine whether a real-time
     means of flagging convenience
     check limit exceptions can be
     developed. Such efforts will be
     completed by May 31, 2014.

     With respect to awareness of the
     difference between single purchase
     limits for P-Cards and convenience
     checks, DOA will issue periodic
     emails starting April 30, 2014, to
     all P-Cardholders that reiterate the
     difference between these types of
     limits.
3    DOA will conduct periodic               9/30/14    N/A   Yes       Open
     reviews of the ratio of AOs to P-
     Cardholders to ensure the ratios are
     generally in line with recognized
     best practices.
4    DOA will issue an email to all          4/30/14    N/A   Yes       Open
     AOs that reiterates the
     responsibilities and expectations
     for reviewing and verifying
     documentation supporting P-Card
     transactions.
5    DOA will issue an email to all P-       4/30/14    N/A   Yes       Open
     Cardholders and AOs reiterating
     the importance of providing timely
     notification to the P-Card program
     office of pending cardholder
     separations. DOA will also
     explore the possibility of entering a
     cancellation date into U.S. Bank’s
     system once the P-Card program
     office is notified of a cardholder
     separation. Such a process could
     be used to automatically cancel the
     P-Card on the employee’s effective
     separation date.
6    DOA will issue a Procurement            5/30/14    N/A   Yes       Open
     Administrative Bulletin (PAB) that
     updates the P-Card Guide to
     prohibit cardholders from
     purchasing non-monetary awards
     on their own behalf.
7    DOA will review the roles and           12/31/14   N/A   Yes       Open
     responsibilities of the D/OC and

                                              27
                                                                                              Appendix 5


        Summary of the Corporation’s Corrective Actions
          determine whether changes to the
          P-Card Guide are needed by May
          30, 2014. Such changes may
          require that DOA coordinate with
          the FDIC’s Corporate University
          to adjust the P-Card Online
          Training Course. If changes to the
          training course are required, DOA
          will issue a PAB describing the
          changes by December 31, 2014. If
          changes to the training course are
          not required, DOA will issue a
          PAB describing the changes by
          June 30, 2014.
    8     DOA will modify Circular 2420.1,           12/31/14         N/A             Yes            Open
          FDIC Rewards and Recognition
          Program, to limit non-monetary
          award purchases to those items in
          the FDIC Online Store. The
          Circular will also be clarified to
          prohibit cardholders from
          purchasing non-monetary awards
          from the FDIC online store on their
          own behalf. The draft circular will
          be subject to (a) review and
          negotiation with the National
          Treasury Employees Union and
          (b) the FDIC’s standard directive
          review process.

          In addition, DOA’s Internal
          Review Section will periodically
          sample P-Card transactions
          involving non-monetary awards to
          assess compliance with policies
          and procedures and recommend
          corrective action when necessary.
a
    Resolved – (1) Management concurs with the recommendation, and the planned, ongoing, and completed
                   corrective action is consistent with the recommendation.
               (2) Management does not concur with the recommendation, but alternative action meets the intent
                   of the recommendation.
               (3) Management agrees to the OIG monetary benefits, or a different amount, or no ($0) amount.
                   Monetary benefits are considered resolved as long as management provides an amount.
b
  Recommendations will be closed when (a) Corporate Management Control notifies the OIG that corrective
actions are complete or (b) in the case of recommendations that the OIG determines to be particularly
significant, when the OIG confirms that corrective actions have been completed and are responsive.



                                                       28
